                                       SOCIAL SECURITY
MEMORANDUM

Date:      May 16, 2007                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Organizational Review of the Office of Disability and Income Security Programs
           (A-12-07-27162)


           The attached final report presents the results of our review. Our objective was to
           assess the organizational structure and functions of the Social Security Administration’s
           Office of Disability and Income Security Programs (ODISP) to determine if changes
           would assist the Agency in its administration of the Old-Age, Survivors and Disability
           Insurance and Supplemental Security Income programs.

           We received comments from both the Acting Deputy Commissioner for ODISP and the
           Deputy Commissioner for Budget, Finance and Management. Their comments
           generally agreed with our overall recommendations; however, they offered some
           alternative approaches to address a few specific issues we raised.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                              Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




       ORGANIZATIONAL REVIEW
   OF THE OFFICE OF DISABILITY AND
     INCOME SECURITY PROGRAMS

      May 2007   A-12-07-27162




   EVALUATION
     REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                 Executive Summary
OBJECTIVE
Our objective was to assess the organizational structure and functions of the Social
Security Administration’s (SSA) Office of Disability and Income Security Programs
(ODISP) to determine if changes would assist the Agency in its administration of the
Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental Security
Income (SSI) programs.

BACKGROUND
In March 2007, the Commissioner of Social Security requested that the Office of the
Inspector General conduct a review of the organizational structure and functions of
ODISP—which is the component within SSA that directs and manages the planning,
development and issuance of operational regulations, standards and instructions for the
OASDI and SSI programs, as well as SSA’s international programs.

RESULTS OF REVIEW
Our review of the structure and functions of ODISP found that this component is not
focused solely on planning and program policy issues, but instead is responsible for
several operational functions. Specifically, we found that some functions within ODISP
may be better aligned to improve coordination and productivity and some other
functions appear to be inconsistent with ODISP’s mission and may be better managed
elsewhere in SSA.

Additionally, throughout our interviews with about 17 percent of ODISP’s employees as
well as several of ODISP’s customers, a consistent theme was poor communication
within ODISP and between ODISP and other SSA components.

CONCLUSION AND RECOMMENDATIONS
SSA may be better served from a functional point of view if ODISP’s main focus were
program policy. Therefore, we recommend the Agency:
   •   Re-direct ODISP’s focus to program policy.
   •   Align similar/related functions within ODISP.
   •   Delineate more clearly the role of ODISP with respect to other components.
   •   Improve communications within ODISP and other components.
   •   Consider renaming ODISP and SSA’s Office of Policy to clarify the roles of each
       component, or combining ODISP with the Office of Policy.

AGENCY COMMENTS
Overall, SSA agreed with our five main recommendations.



Organizational Review of ODISP (A-12-07-27162)
                                                                         Table of Contents
                                                                                                               Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

ODISP ORGANIZATIONAL STRUCTURE AND FUNCTIONS ............................... 3
    Office of the Deputy Commissioner for ODISP .................................................. 3
         Immediate Office Staff ............................................................................ 4
         Medicare Part D Subsidy Appeals Unit ................................................... 4
         Office of Regulations ............................................................................... 4
         Office of Program Systems and Innovation Management ....................... 5
    Office of Disability Programs.............................................................................. 5
    Office of International Programs ........................................................................ 6
    Office of Income Security Programs .................................................................. 6
    Office of Medical and Vocational Expertise ....................................................... 7
    Office of Program Development and Research ................................................. 8
    Office of Employment Support Programs .......................................................... 9

ODISP COMMUNICATIONS................................................................................. 10

ODISP AND SSA’s OFFICE OF POLICY ............................................................. 11

CONCLUSION AND RECOMMENDATIONS ....................................................... 12

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Background
APPENDIX D – ODISP Organizational History
APPENDIX E – ODISP Comments
APPENDIX F – OBFM Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments




Organizational Review of ODISP (A-12-07-27162)
                                                               Introduction
OBJECTIVE
Our objective was to assess the organizational structure and functions of the Social
Security Administration’s (SSA) Office of Disability and Income Security Programs
(ODISP) to determine if changes would assist the Agency in its administration of the
Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental Security
Income (SSI) programs.

BACKGROUND

In March 2007, the Commissioner of Social Security requested that the Office of the
Inspector General conduct a review of the organizational structure and functions of
ODISP. ODISP directs and manages the planning, development, and issuance of
operational regulations, standards and instructions for the OASDI and SSI programs, as
well as SSA’s international programs. ODISP’s mission is to:
   •   Develop the Agency’s regulations designed to administer all SSA programs.
   •   Develop program instructions and forms necessary for the Agency’s operating
       personnel to administer all SSA programs, and direct all systems activities
       supporting the Agency’s electronic programmatic instructional system.
   •   Develop and implement procedures, instructions and forms, and coordinate
       activities with the Department of State and other Federal agencies, relating to the
       operation of Social Security programs outside the United States.
   •   Negotiate, implement and administer bilateral social security agreements
       between the United States and other countries.
   •   Design and develop initiatives and programs to promote the employment of
       beneficiaries with disabilities.
   •   Develop demonstrations and studies, which provide recommendations on
       program improvements.
   •   Assess the programmatic policy development processes to identify and
       recommend technology improvements and enhancements, and at the Agency
       level, develop and prioritize technology for the Agency’s programmatic policy
       development process.

Office of Management and Budget (OMB) guidance states that:
   •   Federal employees must ensure that Federal programs operate efficiently and
       effectively to achieve desired objectives.
   •   Programs must operate and resources must be used consistent with agency
       missions.


Organizational Review of ODISP (A-12-07-27162)                                         1
      •   Within the organizational structure, management must clearly define areas of
          authority and responsibility, appropriately delegate the authority and
          responsibility throughout the agency, and establish a suitable hierarchy for
          reporting. 1

A prior Social Security Advisory Board report recommended that the individual who
heads SSA’s policy development organization have clear responsibility for coordinating
the Agency’s policy functions and should not be responsible for program operations. 2

To accomplish our objective, we interviewed or obtained information from 112 ODISP
employees (about 17 percent) as well as a number of employees in other SSA
components whose work relates to ODISP’s mission. We also reviewed assorted
documentation related to ODISP’s organizational structure and functions. Our results
and recommendations that follow are primarily based on information provided by SSA
employees during interviews with Office of the Inspector General staff. (See Appendix
B for our scope and methodology, Appendix C for additional background information,
including an organizational chart, and Appendix D for a brief history of the
organizational structure of ODISP.)




1
    OMB Circular No. A-123, Sections I and II-A.
2
  SSAB, Developing Social Security Policy: How the Social Security Administration Can Provide Greater
Policy Leadership, March 1997. The Advisory Board is a 7-member bipartisan advisory board to advise
the President, the Congress and the Commissioner of SSA on Social Security and SSI policy.


Organizational Review of ODISP (A-12-07-27162)                                                     2
                                                           Results of Review
Looking at SSA from a functional point of view, we believe ODISP’s main focus should
be to plan and establish program policy—i.e., the instructions and operational guidance
that implement the Agency’s programs. However, our review of this component’s
organizational structure and functions found that it had a mix of program policy and
non-policy responsibilities (such as research and demonstration projects and
operational functions). Specifically, we found that:
    •   some functions in ODISP may be better aligned to improve coordination and
        productivity;
    •   some functions appear to be inconsistent with ODISP’s mission and may be
        better assigned to other SSA components;
    •   clarification of ODISP’s role in relation to other components is needed; and
    •   communication within ODISP and between ODISP and other SSA components
        should be improved.

ODISP ORGANIZATIONAL STRUCTURE AND FUNCTIONS

As of March 23, 2007, ODISP had 651 employees.


                                  Component                                    Staff Count
                                                       3
        The Office of the Deputy Commissioner                                           139
        Office of Disability Programs (ODP)                                             110
        Office of International Programs (OIP)                                           25
        Office of Income Security Programs (OISP)                                       137
        Office of Medical and Vocational Expertise (OMVE)                                93
        Office of Program Development and Research (OPDR)                                66
        Office of Employment Support Programs (OESP)                                     81
          Total                                                                         651

OFFICE OF THE DEPUTY COMMISSIONER FOR ODISP

The Office of the Deputy Commissioner for ODISP consists of an Immediate Office staff
as well as several specialized groups—the Medicare Part D Subsidy Appeals Unit
(SAU), the Office of Regulations and the Office of Program Systems and Innovation
Management (OPSIM).

3
 This includes 34 employees in the Immediate Office, 7 employees in the Office of Regulations,
16 employees in the Medicare Part D Subsidy Appeals Unit and 82 employees in OPSIM.


Organizational Review of ODISP (A-12-07-27162)                                                   3
                         As of March 2007, there were 34 staff assigned to the
 Immediate Office        Immediate Office of the Deputy Commissioner for ODISP.
 Staff                   This is basically the same number the office had before the
                         Office of Disability Determinations (ODD) and the Office of
Disability Adjudication and Review (ODAR) separated from ODISP in Fiscal Year
2006. 4 Despite these major changes, the organizational structure of ODISP's
Immediate Office has not changed to reflect the reduction of its duties and
responsibilities.

The Deputy Commissioner’s Immediate Office needs to be analyzed to determine the
optimal number of staff needed to perform its functions. For example, ODISP
continues to have two Assistant Deputy Commissioners when no other Deputy
Commissioner in SSA has two Assistant Deputy Commissioners. Also, some
Immediate Office staff indicated that, prior to the transfer of ODAR, they had spent a
majority of their time on ODAR issues. Therefore, some staff should have transferred
to ODAR when it became a separate component.

                         The Medicare Part D SAU was established in March 2005 to
Medicare Part D          implement certain provisions of the Medicare Prescription Drug
SAU                      Improvement and Modernization Act of 2003 (Public Law 108-
                         173). The SAU processes claimant appeals of Medicare
Part D prescription drug subsidies. It is a self-contained unit which does not coordinate
with any ODISP office and does not perform any policy-making functions. Because this
unit performs operational functions, it may fit better outside ODISP. Several employees
told us that, because the Unit performs appeals functions, a logical location for the SAU
would be in ODAR, which handles other appeals.

                        The Office of Regulations formats and tracks the progress of
Office of               all Agency regulations, but is not responsible for writing the
Regulations             content of the regulations. Therefore, from a functional
                        standpoint, it does not have to be in ODISP. Some staff we
interviewed suggested that it belongs in SSA’s Office of General Counsel (OGC) since
OGC’s Office of Program Law is responsible for drafting and reviewing SSA’s
regulations.

We reviewed other Federal Agencies’ organizational structures who have a role in
disability or health care programs—Department of Labor, Department of Veterans
Affairs and the Centers for Medicare and Medicaid Services—to see where these
Agencies placed their offices responsible for regulations. Two of the three Agencies
had their groups responsible for regulations as separate offices reporting to the Agency
head. The third Agency had the regulations function within its policy office.



4
 ODD moved to SSA’s Office of Operations in October 2005 and ODAR (formerly the Office of Hearings
and Appeals) became a separate component in April 2006. There were over 7,500 hearing and appeals
employees when these functions (and staff) were separated from ODISP.


Organizational Review of ODISP (A-12-07-27162)                                                 4
Regardless of where it is placed, the Office of Regulations needs to have good
communication and cooperation with ODISP offices and other SSA components to do
its job well. To the contrary, staff reported that they were directed to process Disability
Service Improvement (DSI) regulations in “secret” and they were required to sign “non-
disclosure” statements.

                       OPSIM develops and maintains systems for ODISP, provides
OPSIM                  security awareness training and user support for ODISP staff
                       and oversees information technology contracts. Similar to
                       SSA’s Office of Systems, OPSIM also performs functions
which support operations Agency-wide, such as PolicyNet and Program Policy Online.
However, OPSIM systems development is not part of SSA’s Information Technology
Assessment Board process.

SSA should review and clarify the role and mission of OPSIM and assess whether
some or all of the Agency-wide systems work currently performed by ODISP systems
                                                5
staff should be moved to the Office of Systems.

If any systems development functions are kept in ODISP, then ODISP needs to institute
procedures to ensure all systems are developed and all certification and accreditation
(C&A) assessments are performed in accordance with Agency policy. For example, in
the past, ODISP did not always follow SSA’s policies and procedures related to
systems development. Specifically, ODISP created its own C&A self-assessment
process instead of following the process established by SSA’s Office of the Chief
                            6
Information Officer (OCIO). As a result, ODISP’s C&A program was not answering all
the questions needed to meet the National Institute of Standards and Technology
requirements to comply with the Federal Information Security Management Act.

OFFICE OF DISABILITY PROGRAMS

ODP is responsible for disability program policy, including:
      •   the electronic disability process;
      •   disability management information; and
      •   the Requests for Program Consultation (RPC) pilot program currently operating
          in SSA’s Boston and Denver Regions. 7


5
    Some ODISP computer specialists are also assigned to ODP and OPDR.
6
 The OCIO serves as the designated authorizing authority for the Agency in the systems C&A process.
Specifically, the OCIO authorizes the operation of an information system and explicitly accepts the risk to
Agency operations, Agency assets or individuals based on the implementation of an agreed-upon set of
security controls for the system.
7
 RPC evaluates and resolves program related disagreements between DDSs and SSA’s Office of Quality
Performance.


Organizational Review of ODISP (A-12-07-27162)                                                          5
Based on our review, we believe ODP should focus solely on disability program policy
issues, such as developing disability evaluation policies and medical evidence
requirements. The operational functions ODP performs, such as collecting disability
management information and monitoring the quality of SSA disability case development
for Cooperative Disability Investigations (CDI), could be moved to SSA’s Office of
Operations. The Office of Operations already has responsibility for the State Disability
Determination Services (DDS) which are a key player in the CDI units; and the disability
management information collected by ODP is used by Operations in its oversight of the
DDSs.

SSA should review the functions of ODP’s Electronic Processing Policy staff and
ensure this group is only responsible for policy issues, not maintaining electronic
systems or performing operational duties. Also, during our interviews, staff expressed
concerns with the role of ODP’s medical officers. SSA should review the duties of
ODP’s medical officers to ensure they are an appropriate fit for this component.

In addition, several individuals we interviewed commented that the RPC pilot program
works well but were concerned whether ODP has adequate staffing for the program if it
is to be implemented in SSA’s other eight regions. ODP should assess whether it has
sufficient staff for its RPC initiative if it is rolled out nationwide.

OFFICE OF INTERNATIONAL PROGRAMS

OIP serves as the Agency's focal point for international affairs. Its major activities
include:
   •   negotiating and administering international Social Security agreements;
   •   developing program policy for application of the United States Social Security
       program abroad; and
   •   coordinating and supporting SSA’s participation in international organizations.

Our review did not disclose any reasons to modify OIP’s structure or functions.

OFFICE OF INCOME SECURITY PROGRAMS

OISP performs a variety of functions related to the Old-Age and Survivors Insurance
(OASI) and SSI programs, including:
   •   developing, coordinating, evaluating and issuing policies, standards and
       instructions for the OASI and SSI programs;
   •   developing agreements with the States and other agencies that govern State
       supplementation programs, Medicaid eligibility, data exchange programs, food
       stamps and fiscal reporting processes; and
   •   implementing provisions of the Computer Matching and Privacy Protection Act.




Organizational Review of ODISP (A-12-07-27162)                                           6
Our review disclosed that, from a functional point of view, it may be more appropriate to
re-align some of OISP’s functions. Specifically, it may be a better fit to move the limited
English speaking, Asian-Pacific and other similar outreach activities to SSA’s Office of
Communications (OCOMM) since these efforts relate to communications and not
developing policy.

Additionally, OISP’s responsibilities with regard to information exchange and matching
may be better suited elsewhere. One employee informed us that all data exchanges
have to be reviewed by SSA’s Office of General Counsel/Office of Public Disclosure for
privacy issues. Further, OGC’s functional description states that its “[Office of Public
Disclosure] develops national standards relating to the release and exchange of
personal data in SSA databases to Federal, state and local agencies, and serves as the
                                                                                 8
Agency’s focal point for all data sharing activities with outside organizations.” Given
that OGC already performs a key role in data exchanges, it may be a better fit to move
this function to OGC. Another option would be to place this function in SSA’s Office of
Systems or the OCIO. We reviewed information on the three Agencies discussed
earlier 9 to determine where those Agencies organizationally placed responsibility for
data matching. Two of these Agencies placed this function in their components related
to information technology—one in systems and one in the OCIO—and the third placed
it in their office responsible for administration and management.

OFFICE OF MEDICAL AND VOCATIONAL EXPERTISE

OMVE performs a number of functions, including:
      •   managing medical and vocational expert contracts;
      •   assisting DDSs, Regional Offices, Administrative Law Judges, the Decision
          Review Board and the Office of Quality Performance with workloads and
          guidance;
      •   processing payments for experts, consultative examinations and medical
          evidence; and
      •   reviewing, assessing and analyzing policy and procedures for the disability
          determination process.

OMVE originally was established in ODISP as the Federal DDS. It was transferred to
SSA’s Office of Operations at the same time other DDS operations were reassigned in
2005. It was moved back to ODISP in May 2006 to support the DSI initiative. Under
DSI, OMVE was envisioned to manage a nationwide network of medical, psychological
and vocational experts who assist Federal Reviewing Officials, Administrative Law
Judges, the Decision Review Board, State DDSs and the Office of Quality Performance
in making disability determinations and decisions. The DSI initiative—if maintained by
SSA—will require significant hiring to support OMVE’s mission.

8
    Prior to the Office of Public Disclosure’s move to OGC, this office was part of OISP.
9
    The Departments of Labor and Veterans Affairs, and the Centers for Medicare and Medicaid Services.


Organizational Review of ODISP (A-12-07-27162)                                                      7
While OMVE has some policy functions, such as developing new policies and
procedures for the disability determination process, it is still primarily performing an
operational function. We believe it should be returned to SSA’s Office of Operations,
regardless of future Agency decisions on the DSI initiative.

OFFICE OF PROGRAM DEVELOPMENT AND RESEARCH

OPDR was created in 2002 to provide broad program analysis and development in
support of the disability and SSI programs. OPDR is responsible for:
      •   developing and implementing disability and SSI-related demonstration projects;
      •   administering grants, interagency agreements and contracts (such as the training
                                                                                     10
          contract for work incentives and contracts related to the DSI initiative);
      •   identifying and developing potential research projects to support future policy
          initiatives and determining policy implications;
      •   conducting studies and analyses on work incentives;
      •   developing guidelines and technical procedures for the continuing disability
          review (CDR) process;
      •   estimating the number of CDRs that must be processed, establishing the CDR
          schedule, “scoring” each individual, selecting individuals for a CDR medical
          review or mailer and monitoring this process; and
      •   implementing current policy and formulating new and innovative ideas to assist
          individuals with disabilities to return or remain in the work force.

To re-focus ODISP’s mission on program policy, OPDR’s functions should be
transferred to other SSA components. Specifically:
      •   Research and demonstration projects could return to SSA’s Office of Policy,
          where they were prior to OPDR’s creation in 2002. Combining all research
          projects in the Office of Policy is consistent with the long-term, forward-thinking
          mission of that component. Moreover, the Office of Policy is already responsible
          for other research projects.
      •   CDR profiling and development of management information could move to
          SSA’s Office of Operations, which is where it was previously, as part of ODD.
          Since the CDR work is operational in nature, it would be better placed where the
          CDR work is being performed. Moreover, our interviews with ODISP employees
          indicated that the separation of the CDR work between these two components
          has impacted the efficiency of this workload.
      •   OPDR’s work incentive and ticket to work functions would be better placed in the
          component primarily responsible for these programs—ODISP’s Office of
          Employment Support Programs.


10
     SSA is currently working with OMB to assess DSI and make decisions on the future of this initiative.


Organizational Review of ODISP (A-12-07-27162)                                                              8
OFFICE OF EMPLOYMENT SUPPORT PROGRAMS

OESP was created in 1999 to assist individuals with disabilities who want to become
more self-sufficient through work. OESP:
     •   implements and maintains program policy on Disability Insurance and SSI work
         incentives and related areas; 11
     •   develops informational materials to increase public understanding and use of
         work incentives and to support the employment efforts of Social Security
         beneficiaries with disabilities;
     •   implements the provisions of the Social Security Act which facilitate access to
         rehabilitation and other forms of employment support services through the Ticket
         to Work and Self-Sufficiency Program (Ticket);
     •   supports the Ticket to Work and Work Incentives Advisory Panel; 12 and
     •   approves payments to service providers and ensures that beneficiary
         participation in the program is appropriate.

OESP performs both policy and operational functions. For instance, OESP drafts policy
and creates materials related to the Ticket program as well as SSA’s other work
incentive programs. However, OESP also implements programs and works directly with
States, contractors and even the public. For example, OESP has overseen the
issuance of 12 million Tickets since February 2002 and certified millions of dollars in
payments to thousands of Employment Networks. OESP also entered into more than
99 cooperative agreements with community organizations under the Work Incentives
Planning and Assistance program.

OESP’s policy work fits with ODISP’s mission. However, awarding contracts and
grants, entering into cooperative agreements, overseeing the issuance of Tickets,
approving payments and handling contact with the public are operational functions and
may be better aligned with SSA’s operational components. Nonetheless, the decision
of whether to move the operational functions related to the Ticket program should be
delayed until pending (as of April 2007) Ticket program regulations are finalized and the
future impact of these new regulations on the Ticket program can be better assessed.




11
  SSA has several work incentive programs, including Plans for Achieving Self-Support, Impairment
Related Work Expenses, Ticket to Work, etc.
12
  This 12-member panel consists of 4 individuals appointed by the President, 4 appointed by the House of
Representatives and 4 appointed by the Senate. The panel provides advice, recommendations and
support to the President, Congress and the Commissioner of Social Security on issues related to people
with disabilities who are going back to work.


Organizational Review of ODISP (A-12-07-27162)                                                      9
ODISP COMMUNICATIONS
Throughout our interviews, a consistent theme pertained to poor communication within
ODISP and between ODISP and other SSA components. Regardless of the Agency’s
organizational structure, SSA staff must share the information needed to perform their
duties openly and freely. Therefore, we recommend Agency management take steps to
ensure open communication within ODISP and between ODISP and other SSA
components in the future. During the past month, we have already seen evidence of
improvements in this area through the meetings the Acting Deputy Commissioner has
been holding with the Assistant Deputy and Associate Commissioners in ODISP.

Further, SSA should establish a formal process to track and resolve policy issues
timely, especially those related to disability. Our interviews with other SSA component
members identified examples where other components brought issues to ODISP for
policy resolution. However, the components reported they frequently did not get timely
action on these issues from ODISP. We found no centralized process within ODISP to
track the pending issues or their progress toward resolution.

Since policy initiatives affect various components within SSA, a more formal structured
process to track all policy initiatives and projects—including established time frames
and expected outcomes—would facilitate their efficient development and
implementation across the Agency. Through our interviews, we found that individuals
within ODISP were not aware of what other ODISP offices were doing—even when the
initiatives and/or projects had an impact on their work and needed to be coordinated.

Additionally, more clarification is needed on ODISP’s role related to establishing policy
versus issuing policy guidance. There are two main operational components in SSA,
the Office of Operations and ODAR. ODISP’s method of issuing policy to each of these
components is different. For example, ODISP writes the content for the Agency’s
Program Operations Manual System which is mainly used by SSA’s Office of
Operations. The Office of Operations has the ability to issue instructions to its staff
through such documents as operational guides. However, ODISP’s role with ODAR is
unclear. ODAR develops and issues both policy and instructions on hearings and
appeals issues. Currently, ODISP does not serve the same role in issuing policy to
ODAR as it does to the Office of Operations. ODAR staff expressed their preference to
continue to be responsible for hearings and appeals policy, while ODISP staff believes
their office should be responsible for ODAR program policy. We believe SSA needs to
clearly define ODISP’s role in issuing policy for ODAR.

In some cases, policy issues can be difficult to separate from operational procedures.
Therefore, there must be cooperation and coordination between ODISP, Operations,
ODAR and other impacted SSA components in an open and responsive environment.
Many of the people we interviewed cited examples where conflicts have arisen because
ODISP issued policy that later had to be changed because it did not take into account
an operational perspective (e.g., policy related to the Intelligence Reform and Terrorism
Protection Act, policy related to printing electronic folders in ODAR, etc.). Regardless


Organizational Review of ODISP (A-12-07-27162)                                       10
of who writes the policy instruction, there needs to be an institutionalized process where
all parties are consulted and their views considered prior to issuing instructions that
impact SSA’s ability to do its job.

SSA, as an Agency, should be consistent in establishing which component is
responsible for issuing policy and how operational components should issue
instructions to their staffs. Also, the policy guidance and operational instructions need
to be consistent and linked to each other.

ODISP AND SSA’S OFFICE OF POLICY
In reviewing ODISP and comparing it to other SSA components with similar functions,
we believe any efforts to reorganize ODISP should include an evaluation of ODISP and
the Office of Policy to determine whether it makes sense to rename one or both
components to clarify the roles of each office and to allow customers to easily identify
their missions. For example,
    • ODISP could be named the Office of Program Policy, and/or
    • the Office of Policy could become the Office of Strategic Planning and Research.
        The mission of the Office of Policy is to provide advice on major policy issues
        and it is responsible for major activities in the areas of strategic policy planning,
        policy research and evaluation.

Additionally, we received a number of suggestions to combine ODISP and the
Office of Policy into one component since both components’ missions relate to policy
and planning.




Organizational Review of ODISP (A-12-07-27162)                                           11
                                                   Conclusion and
                                                 Recommendations
Based on our interviews with ODISP employees and customers, as well as a review of
various documents on SSA’s organizational structure and functions, the Agency may be
better served if ODISP were to focus mainly on program policy functions and improve
its communications. Based on our review, we recommend SSA:
1) Re-direct ODISP’s focus to program policy.
   a) Consider transfer of the Medicare SAU and the Office of Regulations currently in
      the Immediate Office of the Deputy Commissioner.
   b) Move ODP operational functions, such as collection of disability management
      information, to SSA’s Office of Operations.
   c) Clarify the role of ODP’s Electronic Processing Policy staff to ensure it focuses
      on policy, not operational or systems maintenance functions.
   d) Re-visit functions of the medical officers assigned to ODP.
   e) Re-assess the placement of some OISP functions, such as outreach activities
      and data matching.
   f) Move OMVE to the Office of Operations’ ODD.
   g) Transfer OPDR’s operational and research functions to other SSA components.
2) Align similar/related functions within ODISP.
   a) Establish a single Assistant Deputy Commissioner position.
   b) Review duties of Immediate Office staff and establish optimal staffing level.
   c) Move OPDR work incentive/ticket to work functions to OESP.

3) Delineate more clearly the role of ODISP with respect to other SSA components.
   a) Clarify the respective policy-making and instruction issuance roles of ODISP and
      ODAR.
   b) Review and clarify the role/mission of OPSIM.
   c) Ensure ODP has adequate staffing if the RPC pilot is implemented nationwide.

4) Improve communications within ODISP and between ODISP and other components.
   a) Establish a formal process to track and resolve policy issues timely.
5) Consider renaming ODISP and SSA’s Office of Policy to clarify the roles of each
   component, or combining ODISP with the Office of Policy.

AGENCY COMMENTS
Overall, SSA agreed with our five main recommendations. (See Appendices E and F
for the full text of the Agency’s comments.)




Organizational Review of ODISP (A-12-07-27162)                                        12
                                           Appendices




Organizational Review of ODISP (A-12-07-27162)
                                                                 Appendix A

Acronyms
 C&A               Certification and Accreditation
 CDI               Cooperative Disability Investigations
 CDR               Continuing Disability Review
 DDS               Disability Determination Services
 DSI               Disability Service Improvement
 OASDI             Old-Age, Survivors and Disability Insurance
 OASI              Old-Age and Survivors Insurance
 OCIO              Office of the Chief Information Officer
 ODAR              Office of Disability Adjudication and Review
 ODD               Office of Disability Determinations
 ODISP             Office of Disability and Income Security Programs
 ODP               Office of Disability Programs
 OESP              Office of Employment Support Programs
 OGC               Office of General Counsel
 OIP               Office of International Programs
 OISP              Office of Income Security Programs
 OMB               Office of Management and Budget
 OMVE              Office of Medical and Vocational Expertise
 OPDR              Office of Program Development and Research
 OPSIM             Office of Program Systems and Innovation Management
 RPC               Request for Program Consultation
 SAU               Subsidy Appeals Unit
 SSA               Social Security Administration
 SSI               Supplemental Security Income
 Ticket            Ticket to Work and Self-Sufficiency Program




Organizational Review of ODISP (A-12-07-27162)
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we:
    •   Reviewed applicable sections of the Federal Register.
    •   Researched the history of the organizational structure and functions of the Office
        of Disability and Income Security Programs (ODISP). This included obtaining
        and verifying information with the Social Security Administration’s (SSA) Office of
        the Historian and the Office of the Deputy Commissioner for Human Resources.
    •   Reviewed Government Accountability Office and Social Security Advisory Board
        reports, as well as internal SSA memorandums and documents related to
        ODISP.
    •   Reviewed Office of Management and Budget guidance on organizational
        structures.
    •   Interviewed Deputy Commissioners for SSA’s major components whose work
        related to ODISP’s mission.
    •   Obtained a file of all 651 ODISP employees as of March 23, 2007 from SSA’s
        Human Resources Division.
    •   Interviewed specific ODISP employees, including the Acting Deputy
        Commissioner, Assistant Deputy and Associate Commissioners, Division
        Directors, a random sample of staff and volunteers. 1
             For the sample of staff, we randomly selected two Social Insurance
              Specialists and two non-Social Insurance Specialists for each office
              and/or division within ODISP.
             For the volunteers, we invited all ODISP employees not selected for
              interview based on their position or randomly sampled to either volunteer
              to be interviewed or to provide written responses to questions related to
              their work duties and responsibilities.

We conducted our review between March and April 2007 in Baltimore, Maryland. The
entity reviewed was ODISP. We conducted our review in accordance with the Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency.




1
  In total, 112 ODISP employees provided us with information for our review (about 17 percent of staff).
This included 6 employees who provided written comments to us and 106 employees who we interviewed
(32 employees were selected at random and 35 employees volunteered to speak with us). We also
interviewed 4 former ODISP employees and 9 executives from other components.


Organizational Review of ODISP (A-12-07-27162)
                                                                                       Appendix C

Background
The Old-Age, Survivors and Disability Insurance program provides retirement benefits
to insured individuals who have reached the minimum retirement age, survivors’
benefits to dependents of insured wage earners in the event the family wage earner
dies and disability benefits to disabled wage earners and their families. The
Supplemental Security Income (SSI) program provides income to financially needy
individuals who are aged, blind and/or disabled.

Within the Social Security Administration (SSA), there are nine Deputy Commissioners
with offices reporting to the Commissioner of Social Security: 1
(1) Communications;
(2) Disability Adjudication and Review;
(3) Budget, Finance and Management;
(4) Human Resources;
(5) Legislation and Congressional Affairs;
(6) Operations;
(7) Policy;
(8) Systems; and
(9) Disability and Income Security Programs.

The Deputy Commissioner for the Office of Disability and Income Security Programs
(ODISP) is the principal advisor to the Commissioner on program policy issues and is
involved in strategic planning, policy development and analysis of SSA program policy.

•     The Immediate Office of the Deputy Commissioner provides the Deputy
      Commissioner with staff assistance on the full range of his/her responsibilities. The
      Immediate Office includes the Agency’s Regulations Officer and establishes and
      maintains Agency standards for the development of regulations and rulings.
•     The Office of Program Systems and Innovation Management provides expert advice
      and support to the Deputy Commissioner and Assistant Deputy Commissioner on
      the technology that supports Agency-level projects and initiatives that impact the
      Agency’s policy-making processes. It provides user support to all ODISP
      components and directs all systems activities supporting the Agency’s electronic
      programmatic instructional system.
•     The Office of Disability Programs plans, develops, evaluates and issues the
      operational and administrative appeals process policies, standards and instructions
      for the SSA-administered disability programs. This office also develops and
      promulgates policies and guidelines for use by State, Federal or private contractor-
      providers which implement the disability provisions of the Social Security Act.
1
    SSA, Organizational Structure of the Social Security Administration, April 2007 (http://www.ssa.gov/org/).


Organizational Review of ODISP (A-12-07-27162)                                                            C-1
    Additionally, this office evaluates the effects of proposed legislation to determine the
    impact on the disability programs and ensures that interrelated policy areas are
    coordinated.
•   The Office of International Programs serves as SSA's focal point for international
    program policy matters and the Agency’s participation in the international Social
    Security community. This office also serves as liaison to international agencies and
    associations that deal with Social Security matters; negotiates international Social
    Security (totalization) agreements with foreign governments and develops policies
    and procedures to implement the agreements; develops and implements policies
    and procedures relating to the operation of the Social Security program outside the
    United States; and provides training programs and technical consultation to Social
    Security officials and other experts outside the United States.
•   The Office of Income Security Programs provides SSA-wide leadership and
    direction to the development, coordination and promulgation of Old-Age and
    Survivors Insurance (OASI) and SSI policies and procedures. This office also
    develops, coordinates, evaluates and issues the policies, standards and instructions
    for the OASI and SSI programs; and develops agreements with the States and other
    agencies that govern State supplementation programs, Medicaid eligibility, data
    exchange programs, food stamps, fiscal reporting processes and electronic
    computer matches. Additionally, this office is responsible for all aspects of SSA’s
    policy process and the migration of OASI and SSI program services to the Internet.
•   The Office of Medical and Vocational Expertise provides expert advice and supports
    SSA’s disability determinations process. It manages a nationwide network of
    medical, psychological and vocational experts who assist Federal Reviewing
    Officials, Administrative Law Judges, the Decision Review Board, State Disability
    Determination Services and the Office of Quality Performance in making disability
    determinations and decisions. This office also assists in ensuring full development
    of the record, enabling adjudicators to make accurate determinations or decisions
    as early as possible, and facilitates subsequent reviews when a case is appealed to
    a higher level.
•   The Office of Program Development and Research provides broad program analysis
    and development in support of the Disability Insurance and SSI programs. The
    office maintains awareness of issues concerning the broad program policy
    environment, including Congress, the private sector and other government
    agencies, and ensures the Agency’s policy and research agendas consider and
    reflect these points of view. It also directs studies of program policy issues related
    to the development and evaluation of disability and SSI program initiatives and
    legislative and policy proposals; identifies trends in the SSI and the disability
    programs and compiles and analyzes data on various aspects of those programs;
    designs, implements and evaluates demonstration projects to target special
    populations and program issues; and formulates Agency policy regarding cross-
    cutting programs or issues related to disability and/or income assistance programs
    and works with other agencies, including the Department of Health and Human
    Services.



Organizational Review of ODISP (A-12-07-27162)                                          C-2
•   The Office of Employment Support Programs plans, develops, evaluates, issues
    and administers operational policies that implement provisions in the Social Security
    Act and related statutes promoting or otherwise facilitating the employment of
    Disability Insurance and SSI program beneficiaries with disabilities. This office
    plans and directs a program to assess and evaluate beneficiary needs in the areas
    of rehabilitation and employment support. It also provides operational advice,
    technical support and direction in the administration of employment support
    programs. Additionally, this office implements legislation related to employment
    support programs and provides assistance in educating the public about disability
    program work incentives, rehabilitation and other forms of employment support. It
    also establishes and maintains relationships with parties interested in the
    employment of persons with disabilities and engages in broad-based efforts in
    partnership with other public and private entities to remove employment obstacles
    encountered by disability beneficiaries. Also, the office promotes process
    innovation and cooperation among its partners and stakeholders.

The organizational chart for SSA and the more detailed chart for ODISP follow.


                                                                                                  Chief Strategic
     Chief Actuary                                  Commissioner                                      Officer
                                                      of Social
                                                      Security

    Chief Information
         Officer


                                                       Deputy
      Chief Quality                                 Commissioner
                                                                                                 General Counsel
        Officer




                                                                                                       Deputy
        Deputy
                                  Deputy                Deputy                Deputy               Commissioner,
     Commissioner,
                               Commissioner,         Commissioner,         Commissioner,            Disability and
    Budget, Finance
                                Operations             Systems            Human Resources         Income Security
    and Management
                                                                                                     Programs




                      Deputy                                                             Deputy
                  Commissioner,              Deputy                Deputy             Commissioner,
                  Legislation and         Commissioner,         Commissioner,           Disability
                  Congressional          Communications            Policy            Adjudication and
                      Affairs                                                            Review




Organizational Review of ODISP (A-12-07-27162)                                                                 C-3
                                                        Deputy Commissioner,
                                                        Disability and Income
                                                          Security Programs
     Office of
    Regulations
                                                                                                                       Office of Program
                                                            Assistant Deputy
                                                                                                                         Systems and
                                                             Commissioner                                                  Innovation
                                                                                                                         Management
 Medicare Part D
 Subsidy Appeals
       Unit
                                                            Assistant Deputy
                                                             Commissioner




                            Office of               Office of          Office of Income           Office of Medical    Office of Program
Office of Disability
                          Employment              International             Security               and Vocational      Development and
     Programs
                        Support Programs            Programs               Programs                   Expertise            Research




                        Office of Beneficiary                          Office of Beneficiary                           Office of Continuing
 Office of Disability                             Foreign Program                                 Project Management
                            Outreach and                               Determinations and                               Disability Review
 Evaluation Policy                                  Policy Team                                           Office
                        Employment Support                                   Services                                        Support




 Office of Disability      Office of Ticket         Agreements          Office of Earnings
                                                                                                  Case Management         Office of Data
Program Information       Operations and           Negotiation &         and Information
                                                                                                       Office                Analysis
      & Studies           Provider Support         Analysis Team            Exchange




                         Ticket to Work and
  Office of Medical                                 Agreements        Office of Eligibility and    Program Analysis     Office of Program
                          Work Incentives
        Policy                                  Implementation Team    Enumeration Policy               Office            Development
                           Advisory Panel




  Office of Process                                                     Office of Payment                               Office of Program
        Policy                                                                Policy                                        Research




Electronic Processing
                                                                                                                       D.C. Satellite Office
     Policy Staff




Organizational Review of ODISP (A-12-07-27162)                                                                                         C-4
                                                                                             Appendix D

ODISP Organizational History
Since 1975, a significant number of changes have occurred to the organizational
structure of the Social Security Administration (SSA). Based on our review of Federal
Register notices filed by SSA and Commissioner of Social Security announcements,
substantial reorganizations or realignments occurred in 1975, 1979, 1983, 1984, 1987,
1988, 1994, 1995, 1996, 1998 and 2002.

In August 1998, SSA changed a component’s name from the Office of Programs and
Policy to the Office of Disability and Income Security Programs (ODISP). Also, at that
same time, the Office of Policy and Planning was abolished and its functions split
between the Office of Policy and ODISP.

The chart below shows the organizational structure of ODISP in 1998.




                                  Office of              Office of            Office of              Office of
         Office of
                                Hearings and           International          Program                Program
         Disability
                                  Appeals                Programs             Benefits               Support




After 1998, numerous changes occurred within ODISP:


                 • Eliminated in November 2002
   Office of
                 • Functions redistributed to other remaining offices
   Disability




                 • Eliminated in April 2006
   Office of
 Hearings and    • New Office of Disability Adjudication and Review established as a separate component
   Appeals



                 •
    Office of         No changes since 1998
 International
   Program s



                 • Renamed Office of Income Security Programs
   Office of
   Program
   Benefits




Organizational Review of ODISP (A-12-07-27162)                                                                   D-1
   Office of    • Established in April 1999
 Em ploym ent
   Support
  Program s


                • Eliminated in November 2002
   Office of
   Program      • Functions redistributed to other remaining offices
   Support



                • Established in November 2002, but then moved to Operations in October 2005
   Office of
   Disability   • Created with the deletion of the Offices of Disability and Program Support
Determ inations
                • Some functions moved to Office of Program Development and Research


                • Established in 2002
  Office of
 Regulations




                • Established in November 2002
   Office of
  Disability    • Created when the Office of Program Support and the Office of Disability were eliminated
  Program s



   Office of    • Established in November 2002
   Incom e
                • Formerly the Office of Program Benefits
   Security
  Program s     • Created when the Office of Program Support and the Office of Disability were eliminated


   Office of    •
                    Established in November 2002
   Program
                • Created when the Office of Program Support and the Office of Disability were eliminated
 Developm ent
 and Research   • Assumed research, demonstration, and evaluation work from the Office of Policy


   Program      • Established in February 2004
 System s and
                • Initially named Information Technology and Support staff
  Innovation
 Managem ent


                • Established in 2005 following the passage of Public Law 108-173
Medicare Part
 D Subsidy
Appeals Unit



  Office of     • Established in May 2006
 Medical and
                • Functions taken from Operations/Federal Disability Determination Services
 Vocational
  Expertise     • Approximately 75 staff, as well as medical consultants, transferred from Operations to ODISP




Organizational Review of ODISP (A-12-07-27162)                                                                   D-2
                                                 Appendix E

ODISP Comments




Organizational Review of ODISP (A-12-07-27162)
                                         SOCIAL SECURITY

MEMORANDUM


Date:      May 10, 2007                                                         Refer To:   TA

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Manuel J. Vaz /s/
           Acting Deputy Commissioner for the Office
           of Disability and Income Security Programs (ODISP)

Subject:   Organizational Review of the Office of Disability and Income Security Programs (A-12-07-
           27162)--INFORMATION


           The attached ODISP report presents our comments and recommendations in response to the OIG
           organizational review. We greatly appreciate the analysis performed by OIG and as this response
           reflects, we agree with many of OIG’s recommendations.

           I look forward to meeting with the Commissioner’s workgroup to discuss these recommendations
           which I believe will strengthen ODISP’s ability to be a strong program policy component.

           Attachments:

           ODISP Response to OIG Report
           Organizational Charts

           cc:
           David Foster, Chief of Staff
           David Rust, Executive Secretary
           Reginald Wells, Deputy Commissioner for Human Resources
           James Kissko, Deputy Inspector General




           Organizational Review of ODISP (A-12-07-27162)                                              E-1
                                                      Executive Summary
OBJECTIVE

Similar to OIG’s stated objective, our objective in reviewing and responding to the OIG report
was to determine what changes to The Office of Disability and Income Security Programs
(ODISP) would best assist the agency in administering the OASDI, SSI and Medicare programs.

ODISP’s RESPONSE

We agree with many of the specific proposals for change and where we disagree, we offer an
alternative or provide rationale for not changing a particular structure or function. Throughout,
we have been guided by the broad principles outlined in OIG’s report. Overall, we agree with the
five broad conclusions in the report:

   •   Redirect ODISP’s focus to program policy
   •   Align similar/related functions within ODISP
   •   Delineate more clearly the role of ODISP with respect to other components
   •   Improve communications within ODISP and other components
   •   Consider re-naming ODISP and the Office of Policy to clarify the roles of each
       component, or combine ODISP with the Office of Policy.

Based on our review, we propose the following (recommendations which are consistent with OIG
recommendations are designated with an asterisk):

ODISP Front Office
  1. ODISP should have a single Deputy Assistant Commissioner.*
  2. ODISP front office staff and related functions should remain in place but be placed under
     the authority of the Executive Officer position.
  3. The Subsidy Appeals Unit should be moved to the Office of Disability Adjudication and
     Review (ODAR).*
  4. The Office of Regulations (OR) could be moved to the Office of General Counsel
     (OGC)* or as an alternative - to the Office of the Deputy Commissioner for SSA.
  5. The Office of Program System and Innovation Management (OPSIM) should remain a
     part of ODISP and be classified as an Associate Commissioner level office.

Office of Medical and Vocational Expertise (OMVE)
   6. A large portion of the Office of Medical and Vocational Expertise (OMVE) should be
       moved to DCO to help support the DDS’s* while the remaining portion should remain in
       ODISP and be combined with the other program analysis functions into a new component
       called the Office of Program Studies and Analysis (OPSA).




Organizational Review of ODISP (A-12-07-27162)                                           E-2
   7. The national registry should be developed and maintained by either the Deputy
      Commissioner for Operations (DCO) or ODAR.

Office of Program Development (ODP)
   8. ODP should absorb the Continuing Disability Review (CDR) program policy from the
       Office of Program Development and Research (OPDR).
   9. The Professional Relations Staff should be moved to DCO/ODD.
   10. The Office of Disability Program Information Studies should be moved to OPSA, the
       proposed new ODISP component .

Office Program Development and Research (OPDR)
   11. The demonstration projects from OPDR should be moved to OPSA, the proposed new
       ODISP component.
   12. The CDR profiling function should be moved out of ODISP* and be transferred to the
       Office of Quality Performance.
   13. OPDR’s work incentives functions should be moved to the OESP*.

Office of International Programs (OIP)
   14. OIP should not be modified. *

Office of Income Security Programs (OISP)
   15. The limited English speaking, Asian-Pacific and other similar outreach activities should
       be moved to the Office of Communications.*
   16. The information exchange and matching function should be moved to the Office of
       General Counsel/Office of Public Disclosure.*

Office of Employment Support Programs (OESP)
   17. The work incentives program policy function currently performed in OPDR should be
       moved to OESP.*
   18. The workload function of paying service providers and the Vocational Rehabilitation
       Agencies should be moved to the Office of Operations.
   19. The work incentive contracts and grants function should remain in OESP

General Recommendations
   20. ODISP will improve communications within ODISP and between ODISP and other
       components.*
   21. ODISP should work with the other deputy level components to develop a centralized
       process within ODISP to track the pending issues and their progress toward resolution.*
   22. ODISP should meet with ODAR and DCO to discuss respective policy making and
       instructions issuance roles.*
   23. ODISP should be renamed to the Office of Program Policy (OPP).*


Organizational Review of ODISP (A-12-07-27162)                                           E-3
    Office of Disability and Income Security Programs Response to
        Office of Inspector General’s Audit on Reorganization
Thank you for the opportunity to comment on attached draft report on the organizational review
of ODISP. Similar to OIG’s stated objective, our objective in reviewing and responding to the
report was to determine what changes to ODISP would best assist the agency in administering
the OASDI, SSI and Medicare programs. We believe it is critically important for SSA to have a
strong program policy component to provide direct support to SSA’s operational components, to
allow for data driven decisions on future program and policy changes, and to provide Agency-
wide leadership and expertise in managing SSA’s programs.

Overall, we agree with the five broad conclusions in the report:

   •   Redirect ODISP’s focus to program policy
   •   Align similar/related functions within ODISP
   •   Delineate more clearly the role of ODISP with respect to other components
   •   Improve communications within ODISP and other components
   •   Consider re-naming ODISP and the Office of Policy to clarify the roles of each
       component, or combine ODISP with the Office of Policy.

We also agree with many of the specific proposals for change and where we disagree, we offer an
alternative or provide rationale for not changing a particular structure or function. Throughout,
we have been guided by the broad principles outlined in OIG’s report.


Immediate Front          Assistant Deputy Commissioners: We recognize that ODISP has
Office Staff             two Assistant Deputy Commissioners, primarily due to its previous
                         role as the parent component for OHA. Given that this has changed,
we agree to the recommendation of having only one Assistant Deputy Commissioner.

Other immediate front office staff: We began examining the structure of our immediate front
office prior to the release of this report, and have since redeployed some of the staff to other
components within ODISP. The majority of our remaining immediate front office staff consists
of the Budget and Planning Staff, the Program Coordination Staff (which processes audits,
Congressionals and other controls), and the (Human) Resource Management Staff. We believe
these teams are necessary for the critical functions they perform for ODISP. Throughout
headquarters, these functions are performed at every deputy level component and staffed in
roughly the same proportions to size and scope of function as they are in ODISP. We note that in
DCO, many of these functions are performed by Associate Commissioner components, so they
don’t appear organizationally in the front office.

We recommend that this staff and related functions remain in place to assist in meeting the day to
day mission of ODISP. However, we also recommend placing all these functions under the




Organizational Review of ODISP (A-12-07-27162)                                            E-4
Executive Officer position. Our current Executive Officer position does not include
responsibility for the Planning and Budget Staff.

                          We agree with the recommendation that the Subsidy Appeals Unit,
Medicare Part D           which does not perform any policy-making functions, be located in the
SAU                       Office of Disability Adjudication and Review which handles other
                          appeals.

                       We would like to make a clarification to the IG’s report: OGC reviews
Office of              every regulation but the component with the responsibility for the
Regulations (OR)       specific program area drafts the regulation. However, we are open to the
                       recommendation that the Office of Regulations be transferred to SSA’s
Office of General Counsel (OGC). As an alternative, this function could be transferred to the
Office of the Deputy Commissioner for SSA since he is the designated Regulations Policy
Officer. This would be similar to several other federal agencies’ placement of the Regulation
function.

                             OPSIM develops and maintains programmatic and administrative
 Office of Programs          systems for ODISP, ensures systems security requirement
 Systems and                 compliance, provides awareness training and technical user support
 Innovations                 for ODISP staff, and oversees information technology contracts and
 Management                  budget. These functions are similar in size and scope to those
 (OPSIM)                     performed by component support staffs in DCO HQ and the
                             Regional Offices. Our technical user support staff responds to over
100 service calls a week; most of which are resolved in under an hour. Our programming staff
develops creative administrative and programmatic systems solutions to support our ability to
manage SSA’s programs. While they are critically important to our mission, these systems are
generally of limited scope and would likely not receive funding through the ITAB process, which
focuses on IT solutions with national implications. One of the programs developed by ODISP,
Web Bass, is being used throughout headquarters to manage administrative activities. We
believe this and similar programming staffs in DCO HQ and the RO’s provide a necessary
supplement to DCS’s programming capacity.

PolicyNet: OPSIM also manages, maintains, and enhances PolicyNet, which is an online system
containing the laws, regulations, policies and procedures of the programs administered by SSA.
PolicyNet is an enormous system which contains over 250,000 “screens” of policy and
procedural content and receives over 15 million hits a month from SSA users. It provides
essential support to SSA’s front line employees and critical information about SSA’s processes
to the public, congressional staffs and advocacy groups.

ODISP created PolicyNet and has managed it effectively for more than 10 years. We are
concerned that if PolicyNet is moved to Systems, it will receive insufficient resources and
management attention, given all the other priorities of DCS. Quite frankly, we fear that the
efficient issuances of program instructions and other policy issuances will be jeopardized if




Organizational Review of ODISP (A-12-07-27162)                                             E-5
PolicyNet is moved out of ODISP. It has been and it continues to be one of our highest
priorities.

This is a particularly critical time for PolicyNet since we are working with all involved
components to totally revamp the ”look and feel” and functionality of the Program Operations
Manual System (POMS), which is by far the largest policy repository on PolicyNet. We have
worked with contractors to create system prototypes and demonstrations and we have created a
management structure which includes an AC-level Steering Committee and intercomponent
workgroups. The AC Steering Committee recently approved our proposed approach and we are
working diligently with user components to implement it. Moving PolicyNet out of ODISP
could seriously impede this multi-year initiative.

We also believe that keeping it in ODISP allows us to continually improve PolicyNet since our
program specialists and authors are in regular contact with users around the country and have
first hand knowledge of their concerns. We strongly recommend that PolicyNet remain in
OPSIM and that OPSIM remain a part of ODISP, as it is an integral part of ODISP’s mission.

Classification issue: We should note that last year when we designed the OPSIM organization,
we recommended that it be classified as an Associate Commissioner level component. We
understand that the decision to classify it as a GS-15 Director with a GS-15 Deputy Director was
in part based on the unavailability of SES slots. However, we continue to believe this component
of nearly 100 employees performs highly technical and highly critical functions to support
ODISP and Operations as a whole and should be classified as an Associate Commissioner level
component. If Commissioner Astrue agrees and designates an SES slot to this position, we
would consolidate the sub-components within OPSIM into two Offices, each headed by a GS 15
Office Director.

Certification and Accreditation Issue: On page 5 of the report , OIG mentions that ODISP
does not always follow SSA’s policies and procedures relating to systems development since we
developed our own C&A process instead of the one established by the CIO. We believe this is
incorrect. Our systems security staff, located in OPSIM, does follow the CIO’s process which
is based on the National Institution of Standards and Technology requirements to comply with
the Federal Information Security Management Act. The CIO approved all C&A packages for
previous years submitted from ODISP. This year, the current C&A process for the Integrated
Disability Management System includes the demonstration projects. This was done with OCIO’s
consent. We are unaware of any C&A requirements that we have not met.

Office of Medical and      The OIG report correctly states that the OMVE performs both
Vocational Expertise       program policy and operational functions. In addition to processing
(OMVE)                     initial disability cases from state DDSs, OMVE plays a significant
                           role in the formulation and maintenance of disability policies and
                           procedures.

With this in mind, we mostly agree with OIG’s recommendation to move OMVE to the Office of
Operations. But we also believe this review gives us the opportunity to consolidate our disability


Organizational Review of ODISP (A-12-07-27162)                                            E-6
program analysis functions into one component within ODISP, which would strengthen our
ability to develop sound, data driven program policy.

Specifically, we believe most of OMVE should be transferred to DCO to help the DDSs process
initial disability claims. The remaining portion of OMVE should be combined with the other
program analysis functions within OPDR and ODP to form a new component named the Office
of Program Studies and Analysis (OPSA). This new component would 1) conduct studies and
analysis on live disability cases as is currently done in OMVE; 2) develop disability management
information and conduct data analysis as is currently performed in ODP; and 3) perform program
development activities such as live demonstration models, currently performed in OPDR. We
discuss this proposed new organization in more detail later in this paper.

Registry of Medical Experts: Commissioner Astrue has discussed development of a national
registry of medical experts that could be utilized by DDS and ODAR adjudicators. We are also
aware of concerns raised by Operations about current state medical experts vs. federal medical
experts. Because the registry would exist to support adjudicators in operational components and
would not serve a role in program policy, we believe that the registry should be developed and
maintained by either DCO or ODAR.

 Office of Disability       ODP is responsible for disability program policy, including the
 Programs (ODP)             electronic disability process; disability management information and
                            analysis; and the Requests for Program Consultation (RPC) pilot
                            program currently operating in SSA’s Boston and Denver Regions.
                            As noted above, we recommend that the disability management
information and analysis function within ODP be moved to the proposed OPSA.
CDR Program Policy: We recommend that ODP absorb the Continuing Disability Review
(CDR) program policy from the OPDR. We believe that this policy function aligns with the
current functions of ODP.
Professional Relations Staff: We also propose transferring the Professional Relations Staff in
ODP to DCO/ODD. Many years ago, the Office of Disability had a robust professional relations
staff that was used to recruit consultative examiners, and interface with DDS professional
relations staff. Over time, this function was downgraded in lieu of policy responsibilities. With
the transfer of the DDSs from ODISP to DCO, the people in the Professional Relations Staff
were formally reassigned to policy-related duties. However, the designated personnel were never
actually transferred to DCO.

We propose doing so at this time. This would involve sending all six former Professional
Relations Staff employees to ODD at the end of the fiscal year. This will formally resolve a
longstanding and somewhat acrimonious debate, over whether all appropriate personnel were
transferred to DCO at the time DCO took responsibility for the DDSs. We recommend that
ODD use these employees to support the new medical and vocational registry. This function will
require significant work with DDS professional relations staff around the country.




Organizational Review of ODISP (A-12-07-27162)                                           E-7
Electronic Processing Policy Staff, Medical Officers, and RPC initiative: We are currently
reviewing the functions of ODP’s Electronic Processing Policy staff and ensuring that this group
is only responsible for policy issues. We are also reviewing the role of ODP’s medical officers
and considering the option of keeping two medical doctors on staff in ODP and transferring the
remainder of the doctors to the proposed new OPSA. Lastly, we are assessing the staffing needs
to support a nationwide rollout of the RPC initiative. It is likely that we will need additional staff
for this function.


Office of Program           We agree that in order to re-focus ODISP’s mission on program policy,
Development and             OPDR’s functions should be transferred to other SSA components.
Research (OPDR)             However, we do not recommend moving the program development
                            function to the Office of Policy (OP). Instead, we propose that the
demonstration projects (demos) from OPDR be transferred to the proposed new OPSA which is
discussed in detail later in the paper. The demos are applied research involving actual claimants
and close coordination with Operations. OP on the other hand, usually conducts higher level
research, which often involves simulation modeling, demographic projections and long term
studies. We believe it is fundamentally different from the disability demos which more
accurately should be called program development.
CDR Profiling and Selection function: We agree that this function should be moved out of
ODISP. However, we believe it should be moved to the Office of Quality Performance (OQP)
rather than DCO, since this function is similar to OQP’s role in T16 redetermination profiling
and selection.
Work Incentive and Ticket functions: Finally, we agree that OPDR’s work incentive and
ticket to work functions would be better placed in the component primarily responsible for these
programs—ODISP’s Office of Employment Support Programs.


 Office of
                             We agree with the recommendations in the report and we have no
 International
                             reasons to modify OIP’s structures or functions.
 Programs (OIP)



 Office of Income            OISP performs a variety of functions related to the Old-Age and
 Security Programs           Survivors Insurance, Supplemental Security Income, and Medicare
 (OISP)                      programs, including: developing, coordinating, evaluating and
                             issuing policies, standards and instructions; developing agreements
with the States and other agencies that govern State supplementation programs, Medicaid
eligibility, data exchange programs, food stamps and fiscal reporting processes; and
implementing provisions of the Computer Matching and Privacy Protection Act. We agree that
some of OISP’s functions are not directly related to program policy and they should be moved
elsewhere in the agency.



Organizational Review of ODISP (A-12-07-27162)                                                E-8
Limited English Proficient, Asian American Pacific Islander and Older Indian Outreach:
We fully agree that it may be a better fit to move the limited English speaking, Asian-Pacific and
other similar outreach activities (such as Older Indian Outreach) to SSA’s Office of
Communications (OCOMM) since these efforts relate to communications and outreach, and not
policy development.

Information Exchange/Data Matching Agreements and Electronic Authentication: We also
agree that OISP’s responsibilities with regard to information exchange and matching may be
better suited in SSA’s Office of General Counsel/Office of Public Disclosure for privacy issues.
Given that OGC already performs a key role in data exchanges, which are essentially contractual
agreements, it may be a better fit to move this function to OGC rather than keep it in ODISP.
We also propose to transfer the electronic authentication policy function to the Office of Public
Disclosure in OGC since authentication for online services and data access is essentially a
disclosure issue.


Office of                  OESP was created in 1999 to assist individuals with disabilities who
Employment Support         want to become more self-sufficient through work. OESP develops
Programs (OESP)            informational materials to increase public understanding of the Ticket
                           to Work program and supports the employment efforts of Social
Security beneficiaries with disabilities. They also implement provisions of the Social Security
Act which facilitate access to rehabilitation and other forms of employment support services
through the Ticket to Work and Self-Sufficiency Program (Ticket). Finally, OESP approves
payments to service providers and ensures that beneficiary participation in the program is
appropriate.
Payments to State VR and ENs: We agree that OESP performs both policy and operational
functions. To that end, we recommend that OESP transfer its function of payments to service
providers such as employment networks and the Vocational Rehabilitation Agencies to DCO.
We recommend that this function be phased in gradually after the publication of the Final Ticket
to Work rules to ensure a smooth transition.

Work Incentives and Contracts/Grants: As mentioned above, we also agree with the
recommendation that OESP be responsible for all work incentives in conjunction with the Ticket
to Work program. However, we disagree that the functions of awarding contracts and grants and
cooperative agreements should be transferred to DCO. We believe these functions should stay in
OESP as they are not really operational workloads. Rather, they are activities that are completely
related to OESP’s ability to effectively implement and manage the Ticket to Work Program.
OESP project officers provide the depth of working knowledge needed to administer contracts,
grants and cooperative agreements. At the same time, they also provide guidance on program
policy issues to answer policy related technical questions with contractors who help administer
the Ticket to Work program. If these functions were segmented, accountability and overall
management of these programs would make it difficult to have a high quality Ticket program.




Organizational Review of ODISP (A-12-07-27162)                                             E-9
                            As mentioned earlier in this report, we propose that ODISP’s
    Proposed: Office of     program analysis functions be consolidated into a single new
    Programs Studies        component named the Office of Program Studies and Analysis
    and Analysis (OPSA)     (OPSA). This component would be comprised of the disability case
                            studies and analysis function currently performed in OMVE; the
disability data development and analysis currently performed in ODP; and the disability program
development currently performed in OPDR. The rationale for moving each of these functions
into OPSA is discussed below.

OMVE’s case studies and analysis function: The Federal Disability Determination Services
(FDDS) formed the nucleus of the OMVE. The memo that established the FDDS in 1986 stated,
“….the major purpose of the FDDS is to help in the development and application of new policies
and secondarily to help manage State DDS workloads…” The analytical part of OMVE serves an
important function for ODISP since it provides for studies and analysis of actual cases to help
develop new policies, procedures, and system modifications.
We believe this portion of OMVE’s function and staff should remain in ODISP, as noted above.
Studies are an integral part of program policy development since they enable us to make program
policy changes based on hard data, not conjecture or anecdotal information. To work effectively,
disability study staff needs to be part of the organization that is responsible for developing
disability program policy. Separating staff who conduct studies from actual program policy
development reduces efficiency, and possibly the quality and usefulness of the research.

ODP’s disability data development and analysis function: The Office of Disability Program
Information and Studies (ODPIS) is the central source of programmatic disability data, and
related data analysis, for developing disability policy in the Agency. It is also the central source
of disability data for the Commissioner, all other SSA components and the OIG. And it is the
central source of disability data for Congress, GAO, the Social Security Advisory Board, press
inquiries, and many other external entities.
ODPIS is an integral part of, and plays an essential role in, ODISP. It is not an exaggeration to
say that very little disability program policy is developed without ODPIS involvement. Over 90%
of ODPIS’s work is programmatic and policy-related; less than 10% of their resources are used
for operational and workload support. 1

Even the apparently “simple” production of programmatic data often involves more complex
policy considerations. This requires close work with other policy components within ODISP and
understanding of what the data means and can actually show. A great deal of the data that ODPIS
produces, especially for people outside of ODISP and outside the Agency, requires technical,
narrative explanation of what the data show and what they do not show. And, in an effort to
avoid “silos” of management information, ODPIS looks across all adjudicative levels in an effort
to promote collection, and analysis of, disability programmatic data.


1
 One of the primary reasons for this is that ODPIS has automated most operational and workload data so that they
are easily available on ODPIS’ Intranet site. This information is also easily manipulated by budget personnel in
many different SSA components.


Organizational Review of ODISP (A-12-07-27162)                                                           E-10
In addition, to effectively carry out studies and thus, policy development, in the information age
requires easy access to the best and most up-to-date programmatic data available. For example,
disability studies need both program support and data support, from individuals who understand
disability and disability programs. For that reason, it is critical for study staff and data analysis
staff to work together in the same component.

The data analysis staff is not simply comprised of technicians who pull data, but are analysts who
provide an integral part of the study design process. It is their understanding of the disability
program and the disability databases that help study design and evaluation staff to identify
necessary variables and determine study, including demonstration project, parameters. The entire
process of conducting rigorous studies involves constant communication and shared work
between data analysts and program developers. Separating disability data analysts from analysts
with study expertise adds an administration burden that will affect the timeliness and quality of
our analytical efforts.

We are also concerned that moving ODPIS out of ODISP could seriously compromise a
Commissioner-level initiative -- the RPC process. ODPIS has been instrumental in overseeing
development of a management information database for eRPC. While Lockheed-Martin has
been building the application, ODPIS has provided close oversight to ensure that the application
meets the Agency's needs. We are very impressed with the progress on this tool to date. With
proper oversight, the tool will be ready for national rollout in FY 2007. However, we are
concerned that a major upheaval in this division could divert attention and oversight from this
critical project precisely when we are contemplating a national rollout of the project.

OPDR’s disability program development function: This refers to the disability demonstration
models that are managed by OPDR. The purpose of the demos is to test alternates to current
policy and procedures in a live, carefully designed test environment. In the federal sector, the
results of formal demonstration models are often used by agencies and Congress as a basis for
major policy changes. As such, it is critically important that demonstrations be rigorously
evaluated. We believe it is essential that demonstration projects be designed by study experts,
program experts, and data analysts in one component to provide an environment in which
projects are appropriately designed, implemented, and evaluated.

Without a strong linkage and collaborative effort between program development and the
evaluation design, the structure of the program may ultimately not yield the essential information
needed to answer the policy question of interest. A basic illustration is when an intervention is
designed without strong programmatic considerations the program may fail to enroll the
necessary numbers of participants, thus providing statistically insignificant results, ultimately
rendering any evaluation effort useless. A recent GAO report found that housing both
programmatic design and evaluation in one structure has been effective in achieving meaningful
evaluation results from their programs. (the GAO report is, Program Evaluation: An Evaluation
Culture and Collaborative Partnerships Help Build Agency Capacity.”)

A final consideration for keeping this function within ODISP is the fact that the disability demos
are at a critical stage. The demos took several years to establish and Congress, OMB, and the


Organizational Review of ODISP (A-12-07-27162)                                                E-11
advocates anxiously await the results. It is important for SSA to maintain the current momentum
toward successful completion of the demos.

                            The issue of communication is a key consideration of ours in
  Communication             developing a proposed reorganization because we believe the
                            structure of new organization would help define our mission and
improve internal and external communications in ODISP. We recognize that the OIG report
focuses on how ODISP functioned during recent years and we agree that this was a period in
which there was a significant lack of communication both within ODISP and between ODISP
and other components. We would like to make the point that this is not how ODISP and its
components have traditionally functioned in the past and we have already made changes to
improve future communications throughout ODISP and with other SSA components.

While previous management decisions were made to restrict access of information about the
development of recent changes to the disability program, it is understood within our current
organization that all relevant agency components should be involved when policy issues are
considered. As an example, by regulation the Agency established a formal process for including
our peers when addressing disability policy issues. The Disability Program Policy Council was
established to recommend changes in our disability policies and procedures in order to improve
the quality of our disability determination process. While this Council is chaired by the Deputy
Commissioner for ODISP, it also includes representatives from components that are responsible
for the operations of the disability determination process (DCO and ODAR), as well as the OQP
and OGC. Under previous ODISP management, this group rarely met and never fulfilled the
regulatory intent. We are committed to reinstating this group to continue this approach in the
development of disability policy.

Additionally, our component has a long tradition of open communication and disseminating
program policy information among our peers through traditional methods such as intercomponent
workgroups, Admistrators letters and highlight reports, disability hour IVT broadcasts, the
electronic disability guide (eDG), PolicyNet, etc. While we cannot immediately repair the harm
done to the relationships between ODISP and our peers due to the restricted information policy
that was implemented under previous management, we remain committed to our tradition of
open communication in both the development and dissemination of policy.

Internally, the Acting Deputy Commissioner has already taken steps to ensure consistent and
open communication. To illustrate this point, we have already seen improvements in this area
with weekly meetings between the executives in ODISP to promote intercomponent awareness
and collaboration. These meetings have begun to foster honest communication and open
dialogue while also serving as a model for Associate Commissioners to practice top down
communications within their own components.

The Acting Deputy Commissioner also implemented a true “open door” policy with ODISP staff
and other SSA components. We have already begun to realize significant progress in this area as
individuals within ODISP are now more aware of what other ODISP offices are doing and are
committed to better coordination among Agency components.


Organizational Review of ODISP (A-12-07-27162)                                           E-12
Process for tracking pending program policy issues: To provide timely, responsive service to
other SSA components on disability issues, and to address a specific OIG recommendation, we
are also considering options for creating a centralized process within ODISP to track the pending
issues and their progress toward resolution. This process would be developed in partnership with
other HQ components and would include agreed upon timeframes and expected outcomes that
would help facilitate efficient development and implementation on program policy solutions
across the Agency.

ODAR Policy Instructions: The OIG report recommends that we clarify the respective policy
making and instructions issuance roles of ODISP and ODAR. We agree and will begin meeting
with ODAR in the coming weeks to discuss this long standing problem area.

Re-naming ODISP: We also agree that SSA should consider renaming our component to better
reflect the core mission of generating and managing program policy. To that end, we recommend
that our component be named the Office of Program Policy. This would help clarify the
distinction between our office and the Office of Policy, which primarily conducts and publishes
long range research studies, statistical analyses and evaluations.

Conclusion

We greatly appreciate the review and analysis performed by OIG and as this response reflects, we
agree with many of OIG’s recommendations. We also used the broad principles outlined in the
report to guide us in developing additional proposals which we believe will strengthen ODISP’s
ability to be a robust program policy component. Throughout its history, under various names
and combination of functions, ODISP has always been tasked with the critical role of developing
and maintaining SSA’s programs. The fact that this component is usually headed by a political
appointee further indicates the importance that SSA has placed on this function. Our sole
objective in reviewing the OIG report and offering additional recommendations for change is to
design an organization that can best meet these challenges in today’s changing environment.




Organizational Review of ODISP (A-12-07-27162)                                           E-13
       Future Vision of the
                                                                               Office of the Deputy
     Office of Program Policy                                                    Commissioner
                                  (OPP)                                            Front Office




                                                                                                 Office of Employment
                                                                      Office of Program                                         Office of Program               Office of
      Office of Income Security           Office of Disability                                    Support Programs
                                                                     Studies and Analysis                                     Systems and Innovation          International
              Programs                      Policy (ODP)                                                (OESP)
                                                                           (OPSA)                                             Management (OPSIM)             Programs (OIP)
                (OISP)




    • Provides SSA-wide            • Drafts medical and          • Conducts disability      • Administers and            • Supports operating          • Negotiates and
        leadership and                 vocational policies          studies and analysis        manages the Ticket to       components through             administers
        direction to the               for disability program                                   Work, Work                  issuance of program            international Social
        development,                                             • Manages disability           Incentive Planning          instructions                   Security agreements
        coordination and           • Drafts procedural              information/analyses        and Assistance, and                                    •   Coordinates and
        promulgation of                policy and cross-            data for program            Protection and           • Develops and                    supports SSA's
        procedures,                    component policies           policy development,         Advocacy Programs           maintains                      participation in
        operational policies,          for disability program       evaluation and                                          programmatic and               international
        and instructions for                                        support                 • Develops,                     administrative                 organizations
        RSI, SSI and               • Collects, analyzes and                                     coordinates, evaluates      systems for ODISP          •   Coordinates SSA's
        Medicare.                      provides feedback on      • Performs program             and issues policies,        components                     international travel
                                       disability                   development (i.e.           standards and                                              and SSA's
    • Provides expertise,              management                   demonstrations)             instructions for the     • Provides user and               International Visitors
        guidance, and                  information                                              Ticket to Work and          infrastructure support         Program
        analysis on the RSI                                                                     work incentives             for ODISP
        and SSI programs to                                                                     programs
        the SSA community,
                                   • Drafts electronic
        other federal, state
                                       folder policy for all                                • Coordinates Ticket to      • Administers Security
                                       adjudicatory levels                                                                  access to systems and
        and local entities,                                                                     Work and work
                                       and resolves requests                                                                provides guidance on
        Congress and other                                                                      incentives outreach
                                       for program                                                                          systems security
        program stakeholders.
                                       consultation, and                                                                    mandates
                                       related policy issues,
                                       timely.




Organizational Review of ODISP (A-12-07-27162)                                                                                                                   E-14
                                                                                   Office of the Deputy
         Reorganization of ODISP:                                                    Commissioner
                                                                                        Front Office
               Future Vision of
                                                                                                                           Office of                Office of General
       Office of Program Policy (OPP)                                               Deputy Commissioner                   Regulations               Counsel (OGC)
                                                                               Assistant Deputy Commissioner                 (OR)

                                                                               Office of the Executive Officer:
                                                                                           Planning
                                                                                            Budget                                                 Office of Disability
                                                                                        Controls Staff                  Subsidy Appeals            Adjudication and
                                                                               Resources Management Staff                 Unit (SAU)               Review (ODAR)




                                                                 CDR Policy                                  Work Incentives

  Office of Income                                                                                                                             Office of Program
                                                                                                                       Office of Employment                                  Office of
       Security                 Office of                                                                                                        Systems and
                                                                                        Office of Program               Support Programs                                   International
      Programs               Disability Policy           Office Medical and                                                                        Innovation
                                                                                          Development                          (OESP)                                     Programs (OIP)
        OISP                      (ODP)                 Vocational Expertise                                                                  Management (OPSIM)
                                                                                         and Research
                                                               (OMVE)
                                                                                              OPDR
                                                           (ELIMINATED)
                                                                                         (ELIMINATED)




                                                      Office of Operations (DCO)                                                                Justify AC Position
   Office of Disclosure                                                                                                                                                    No change
                                                       1. Receives Federal DDS            Office of Quality                                      Reorganization of
          Policy
                                                              from OMVE.                 Performance (OQP)                                    component into two main
           OGC
                                                          2. Receives Registry        1. Receives CDR selection                                        offices
     1. Authentication
                                   Public Relations       function from OMVE                 from OPDR
    2. Data Exchange
                                         Staff             3. Receives Ticket
                                                         Payments from OESP
                                                       4. Receives Professional
                                                       Relations Staff from ODP
                                                                                       Ticket Payments to Operations


Office of Communications
         (OCOMM)
 1. Receives Asian Pacific
     2. Limited English
         Proficiency
 3. Older Indian Outreach


                                                                   NEW
                                           DIB MI
                                                       Office of Program Studies        OPDR Demonstrations merge with prior OMVE
                                                         and Analysis (OPSA)             (also includes DIB MI) to become a new unit
                                                         Combines case studies
                                                           function from OMVE,
                                                       demonstrations from OPDR
                                                       and disability management
                                                          information from ODP




Organizational Review of ODISP (A-12-07-27162)                                                                                                                                             E-15
   ODISP Front Office




                                                                  Office of            Transferred to
                                                                 Regulations               OGC
                                                                    (OR)




                          Office of the Deputy
                             Commissioner
                               Front Office




                                                              Subsidy Appeals
                                                                Unit (SAU)
                                                                                      Transferred to ODAR




Office of Income Security Programs
               (OISP)




                                                                                         1. Asian Pacific Outreach
            Authentication and                                                         2. Limited English Proficiency
             Data Exchange                       Office of Income Security Programs       3. Older Indian Outreach
           Transferred to OGC                                   OISP                           Transferred to
                                                                                        Office of Communications
                                                                                                 (OCOMM)




Organizational Review of ODISP (A-12-07-27162)                                                                          E-16
 Office of Disability Policy
           (ODP)




                                                                                                                               Public Relations
                                                                                                                                     Staff
                                                                                                                          Transferred to Operations

                                                                 Office of Disability Policy (ODP)
               Receives CDR Policy from OPDR
                                                                 Receives CDR Policy from OPDR


                                                                                                                              DIB Management
                                                                                                                                Information
                                                                                                                            Transferred to OPSA




   Office of Medical and
Vocational Expertise (OMVE)




                                                                                                     Case Studies Transferred to OPSA

                                                  Office of Medical and
                                               Vocational Expertise (OMVE)
                                                      (ELIMINATED)


                                                                                                                     1. Registry
                                                                                                                2. Federal DDS Unit
                                                                                                                Transferred to DCO




Organizational Review of ODISP (A-12-07-27162)                                                                                                        E-17
 Office of Program Development and
           Analysis (OPDR)




                                                                                               Demonstrations Transferred to OPSA
                                                                                Office of Program Development
                           CDR Policy Transferred to OPD                             and Research (OPDR)                            Work Incentives Transferred to OESP
                                                                                         (ELIMINATED)




                                                                                               CDR Profiling Transferred to OQP




Office of Employment Support
      Programs (OESP)




                                                           Office of Employment Support Programs
 Ticket Payment Transferred to DCO                                         (OESP)                                                   Receives Work Incentives from OPDR




Organizational Review of ODISP (A-12-07-27162)                                                                                                                            E-18
  Office of Program Systems
 And Innovation Management
            (OPSIM)


                                                 Office of Program Systems and Innovation
                                                            Management (OPSIM)




                                                            Justify AC Position
                                                       Reorganization of component
                                                           into two main offices




Organizational Review of ODISP (A-12-07-27162)                                              E-19
   Office of International
      Programs (OIP)


                                                                                           Office of International
                                                                                              Programs (OIP)




                                                                                                No Change




Office of Programs Studies and Analysis
                                                         Receives Case studies from OMVE




                (OPSA)




                                                           NEW
                      Receives DIB Management   Office of Program Studies
                                                  and Analysis (OPSA)                                Receives Demonstrations from
                             Information
                                                                                                                OPDR
                              from ODP




Organizational Review of ODISP (A-12-07-27162)                                                                                      E-20
                                                 Appendix F

OBFM Comments




Organizational Review of ODISP (A-12-07-27162)
                                         SOCIAL SECURITY
MEMORANDUM                                                                     20070503-0037703


Date:      May 9, 2007                                                            Refer To:   S1J3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dale W. Sopper /s/
           Deputy Commissioner for
           Budget, Finance and Management

Subject:   The Office of Inspector General’s (OIG) Draft Report, “Organizational Review of the Office of
           Disability and Income Security Programs (ODISP)”--INFORMATION


           I have reviewed the above subject draft report and offer the following comments:

           Page 6- Description of the functions of the Office of Income Security Programs—the second
           bullet

              o Developing agreements with the States and other agencies that govern State
                supplementation programs, Medicaid eligibility, data exchange programs, food stamps
                and fiscal reporting processes;

           I agree with the conclusion that ODISP’s responsibilities with regard to information exchange
           and matching may be better suited elsewhere. I do not agree with the recommendation that they
           be moved to either Office of General Counsel (OGC) or Office of Systems. While OGC has
           oversight of the legal aspects of the agreements and Office of Public Disclosure within OGC
           makes the determinations relating to the release of the information, OGC’s role is limited in
           scope. The Office of Systems’ role is limited to enabling the technical connection.

           The Office of the Chief Information Officer, as a policy component, is better suited for this
           function considering the fact that not only is it responsible for information technology, but has
           the lead on security of Personally Identifiable Information (the core content of the data
           exchanges). The Office of Systems Security Operations (OSSOM), within OBFM should also be
           considered as an alternate repository for this function. Throughout the history of data exchange
           at SSA, OSSOM has been the convergence point to which all other Agency components come for
           interpretation of security guidelines. OSSOM has a long and well-documented history of
           addressing the global issues of data exchange. While OSSOM is only responsible for oversight
           and monitoring compliance with information security guidelines, through our reviews we are the



           Organizational Review of ODISP (A-12-07-27162)                                               F-1
only component monitoring and enabling compliance with contractual obligations and
disclosure policy. OSSOM is involved in all aspects of data exchange across all SSA
components, including the Office of International Operations for foreign data
exchanges.
Additionally, it should be noted that the three agencies mentioned in the report for comparison
(Department of Labor, Department of Veterans Affairs and Centers for Medicare and Medicaid
Services) do not perform the same service of net data provider that SSA performs.
OBFM through the Office of Acquisition and Grants has worked with ODISP staff over the years
to develop a significant acquisition and contract management knowledge base. This is
particularly so within the Office of Program Development and Research (relative to research and
demonstration contracts) and the Office of Employment Support Programs (relative to Ticket to
Work and Self-Sufficiency Program contracts). Consequently, I strongly recommend that any
realignment of ODISP which would impact or transfer existing ODISP contracts ensure that this
investment of staff knowledge remain with those contracts in order to promote efficiency and
continuity

Finally, on page 11 the report discusses possible evaluation of the Office of Policy's role in
relation to ODISP. We note that it suggests renaming the Office of Policy as the "Office of
Strategic Planning and Research." However, this seems to conflict with the role of the existing
Office of the Chief Strategic Officer.

Please call me if you wish to discuss. Staff questions may be referred to Candace Skurnik on
extension 54636.

cc:
The Commissioner
Chief of Staff
Acting Deputy Commissioner for Disability and Income Security Programs
Assistance Inspector General Audit




Organizational Review of ODISP (A-12-07-27162)                                                 F-2
                                                                      Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Lawson, Director, (410) 965-8071

   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

Acknowledgments

In addition to those named above:

   Ronald Anderson, Auditor
   Jeffrey Brown, Audit Manager
   Grace Chi, Auditor
   Eugene Crist, Auditor
   Tracey Edwards, Senior Auditor
   Nicole Gordon, Auditor
   Yaquelin Lara, Auditor
   Melinda Lockhart, Senior Auditor
   Michael Maloney, Audit Manager
   Nicholas Milanek, Senior Auditor
   Mary Ellen Moyer, Senior Program Analyst
   Crystal Murphy, Auditor
   George Penn, Senior Attorney
   Phillip Rogofsky, Audit Manager
   Janet Stein-Pezza, Senior Program Analyst
   Linda Webester, Senior Auditor
   Kitt Winter, Director
   Florence Wolford, Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-07-27162.




Organizational Review of ODISP (A-12-07-27162)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
